u.s. Department of Labor            Office of Inspector General
                                    Washington, D.C. 20210




     SEP   3 2009


   MEMORANDUM FOR: 	          LISA D. FIELY 

                              Acting Chief Financial Officer 





   FROM:                      ELLIOT P. LEWIS 

                              Assistant Inspector General 

                               for Audit 


   SUBJECT: 	                 Alert Memorandum: New Core Financial Management
                              System (NCFMS) Cut-over Procedures
                              Report Number: 22-09-015-13-001

   The Office of Inspector General (OIG) contracted with an independent public accounting
   firm, KPMG LLP (KPMG), to conduct a review to identify potential risk associated with
   the implementation of the NCFMS prior to its scheduled deployment on
   October 14, 2009. At the entrance conference, we agreed to notify the Department of
   any unmitigated risk during the implementation process. Accordingly, we are raising
   concerns about the timely completion of the NCFMS Cut-over Transactions Workbook
   (workbook) procedures and training.

   The NCFMS implementation team refers to the period between the time DOLAR$ is
   expected to be unavailable and when the NCFMS becomes available as the "Cut-over
   Period." The workbooks (electronic spreadsheets to record financial transactions during
   the Cut-over Period) will be used to record transactional data during the Cut-over
   Period, which is anticipated to be from September 28 to October 14. The NCFMS
   implementation team has been working with the agency representatives to develop
   procedures to be used during the Cut-over Period. On August 6, the NCFMS
   implementation team provided draft procedures titled Continuing of Business
   Operations (COBO) to agency representatives. On August 18, additional draft
   procedures and guidance, in the form of questions and answers, were put on the DOL
   website. These procedures specify the process for recording transactions during the
   Cut-over Period.

   The NCFMS implementation team will provide workbooks to agency representatives,
   and these workbooks will be used to hold all financial transactions including contracts,
   small purchases, grants, and travel. Each agency will be provided with one workbook to
   record transactions. The strategy is to hold transactional data in the workbooks during
   the Cut-over Period. On October 14, when NCFMS becomes operational, the workbook
   transactions will be processed into NCFMS.


                           Working for America :\'           Wor~lorce
                                            -2­



We raised concerns regarding the reconciliation of data in the planned NCFMS
implementation, and the NCFMS implementation team began developing procedures to
perform a reconciliation of all transactions recorded during the Cut-over Period. The
reconciliation procedures were expected to be completed and issued on or before
August 31, but at this time those reconciliation procedures are in draft and have not
been finalized. In addition, the required training needed to perform reconciliations of the
Cut-over data has not been developed.

It is critical that the Department develop and implement procedures to ensure the data
recorded in NCFMS for the Cut-over Period is complete and valid. Accordingly, we
recommend that the NCFMS implementation team:

    • 	 finalize the policies and procedures related to the process that will occur during
        the Cut-over Period, including the use of workbooks to record transaction data;
    • 	 make a priority to finalize the procedures to perform the reconciliation of all
        transactions recorded in workbooks with those transactions recorded in NCFMS
        by September 9, 2009; and
    • 	 incorporate the Cut-over Period workbook process into the formal NCFMS
        training.

We request that you take action and respond to this report within 10 days. Please
contact Joseph L. Donovan, Audit Director, Office of Audit, at (202) 693-5248, if you
have any questions.

cc: 	   Seth D. Harris, Deputy Secretary
        John Blair, Associate, Deputy Chief Financial Officer
        Ken Bode, Director, Systems Architecture and Development
